NATIONAL ENDOWMENT FOR THE HUMANITIES

       OFFICE OF INSPECTOR GENERAL




             S E M I A N N UA L
                 R E P O RT
             T O CONGRESS
             April 1, 2002 to September 30, 2002

                                                          REPORT NO. 27

         “Democracy demands wisdom and vision in its citizens”
       National Foundation on the Arts and Humanities Act of 1965
                        THE OFFICE OF INSPECTOR GENERAL

                                       serves American taxpayers
                                 by investigating reports of waste, fraud,
                              mismanagement, abuse, integrity violations or
                                unethical conduct involving federal funds.



                                   To report any suspected activity
                         involving NEH programs, operations, or employees

                                          Call the OIG Hotline

                                            (202) 606-8423



                                            Mailing Address

                           Office of Inspector General-Hotline
                         National Endowment for the Humanities
                                1100 Pennsylvania Ave. N.W., Room 419
                                       Washington, DC 20506


                                         Fax:   (202) 606-8329


                                 Electronic Mail Hotline: oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential



This report is also available on the NEH/OIG Website at http://www.neh.gov/whoweare/oig.html
                        NATIONAL ENDOWMENT FOR THE HUMANITIES


                              Phone (202) 606-8350   Fax (202) 606-8329       Email: oig@neh.gov

                                                     WASHINGTON, D.C. 20506



OFFICE OF INSPECTOR GENERAL



                                               October 31, 2002

  Honorable Bruce Cole
  Chairman
  National Endowment for the Humanities
  Washington, D.C. 20506

  Dear Chairman Cole:

  I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Congress
  for the second half of fiscal year 2002. The report is submitted in accordance with the Inspector
  General Act of 1978, as amended. Section 5 of the Act requires that you submit this report, with
  your Report of Final Action, to the appropriate committee or subcommittee of the Congress within
  30 days of its receipt. The report provides a summary of the activities of the OIG during the six-
  month period ended September 30, 2002.

  During this period, we completed our work on the second phase of the Government Information
  Security Reform Act review. We issued three reports that were included with our September 16,
  2002 submission to OMB. Our review of the Davis-Bacon Act, as it applies to grants awarded
  through the Office of Challenge Grants, revealed that NEH needs to be more active in monitoring
  these awards. The OIG is working with the Office of Challenge Grants and the Office of the Gen-
  eral Counsel to improve this process.

  I appreciate your support and look forward to working with you and all agency staff to help ensure
  that NEH delivers grant awards in an economical, effective and efficient manner.

                                              Sincerely,




                                             Sheldon L. Bernstein
                                             Inspector General
                                                      TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

INTRODUCTION ..........................................................................................................................   1

AUDIT AND REVIEW ACTIVITIES................................................................................................               2

INVESTIGATIVE ACTIVITIES ………………………………………………………………………….....                                                                                8

OTHER ACTIVITIES.....................................................................................................................     10

TABLE I - REPORTING REQUIREMENTS……………………………………………………………….                                                                                 12

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS ..............................................................                                13
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ...................................................                                     13
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY......................................................................................                       14
                                             INTRODUCTION



                      THE NATIONAL ENDOWMENT FOR THE HUMANITIES

In order to promote progress and scholarship in the           The Act that established the National Endowment for the
humanities and the arts in the United States, Congress        Humanities says "The term 'humanities' includes, but is
enacted the National Foundation on the Arts and the           not limited to, the study of the following: language, both
Humanities Act of 1965. This Act established the National     modern and classical; linguistics; literature; history;
Endowment for the Humanities as an independent grant-         jurisprudence; philosophy; archaeology; comparative
making agency of the federal government to support            religion; ethics; the history, criticism, and theory of the arts;
research, education, and public programs in the               those aspects of social sciences which have humanistic
humanities. Grants are made through four divisions -          content and employ humanistic methods; and the study
Research Programs, Education Programs, Preservation           and application of the humanities to the human
and Access, and Public Programs -- and two offices --         environment with particular attention to reflecting our
Challenge Grants and Federal-State Partnership.               diverse heritage, traditions, and history and to the
                                                              relevance of the humanities to the current conditions of
                                                              national life."




                                   THE OFFICE OF INSPECTOR GENERAL

 The NEH Office of Inspector General was established on           ·   reports directly to Congress.
 April 9, 1989, in accordance with the Inspector General
 Act Amendment of 1988, (Public Law 100-504). In this             The Act states that the Office of Inspector General is
 legislation, Congress established Offices of Inspector           responsible for (1) conducting audits and investigations;
 General in several departments and in thirty-three               (2) reviewing legislation; (3) recommending policies to
 agencies, including the NEH. The NEH Inspector                   promote efficiency and effectiveness; and (4) preventing
 General (IG) is appointed by the Chairman. The                   and detecting fraud, waste, and abuse in the operations
 independence of the IG is an important aspect of the Act.        of the agency. The Inspector General is also responsible
 For example, the IG:                                             for keeping the Chairman and Congress fully and
                                                                  currently informed of problems and deficiencies in the
 ·    cannot be prevented from initiating, carrying out, or       programs and operations.
      completing an audit or investigation, or from issuing
      any subpoena;                                     The OIG staff consists of the Inspector General, a Deputy
                                                        Inspector General, two auditors, and a secretary. The
 ·    has access to all records of the agency;          OIG and the Office of the General Counsel (OGC) have a
                                                        Memorandum of Understanding detailing the procedures
 ·    reports directly to the Chairman, and can only be for the OIG to be provided with OGC legal services.
      removed by the Chairman, who must promptly advise Investigations are handled by the Inspector General, an
      Congress of the reasons for the removal; and      auditor and as required by the agency’s Assistant
                                                        General Counsel.




NEH OIG Semiannual Report                                     1                                                     September 2002
                                    AUDIT AND REVIEW ACTIVITIES
  This office is responsible for external and internal audits.   programmatic, and financial operations.
  External auditing includes grants, pre-award accounting        During this reporting period, the OIG received and
  system surveys, review of OMB Circular A-133 reports,          processed 93 OMB Circular A-133 audit reports and
  and on-site quality control reviews of CPA work papers.        issued sixteen memorandum reports containing findings
  Internal efforts consist of audits, inspections, and           (see Single Audit Act Reviews).
  reviews/evaluations of the NEH administrative,



                                          LIST OF AUDIT REPORTS ISSUED
  The following is a list of audit/review reports issued by the of Questioned Costs" (including a separate category for
  OIG during this reporting period. The Act requires us to      the “Dollar Value of Unsupported Costs”). None are re-
  report on the "Dollar Value of Recommendations that           ported during this period.
  Funds Be Put to Better Use" and the "Total Dollar Value




INTERNAL AUDITS/REVIEWS                                              Report Number              Date Issued


Review of Firewall and Router                                        OIG-02-05 (IR)             08/01/02

Inspection of Davis-Bacon Program
  Grants Awarded Through Office of Challenge Grants                  OIG-02-06 (IR)             08/20/02

Limited Review of the Grants Management System under the             OIG-02-07 (IR)             09/10/02
 Government Information Security Reform Act

Review of Fiscal Year 2001 Plan of Action and Milestones and         OIG-02-08 (IR)             09/10/02
 Compliance with Office of Inspector General Prior Government
 Information Security Reform Action Recommendations


EXTERNAL AUDITS

Limited Audit of City Lore, Inc.                                     OIG-02-01 (EA)             09/30/02




  NEH OIG Semiannual Report                                      2                                               September 2002
SINGLE AUDIT ACT REVIEWS                             Report Number     Date Issued

Vermont Historical Society                           OIG-02-08 (CAA)   08/08/02
Brown University, John Carter Brown Library          OIG-02-09 (CAA)   09/25/02
Delaware Humanities Council                          OIG-02-10 (CAA)   09/25/02
Florida Humanities Council                           OIG-02-11 (CAA)   09/25/02
Maine Humanities Council                             OIG-02-12 (CAA)   09/25/02
Massachusetts Foundation for the Humanities          OIG-02-13 (CAA)   09/25/02
Mississippi Humanities Council                       OIG-02-14 (CAA)   09/25/02
Nevada Humanities Committee                          OIG-02-15 (CAA)   09/25/02
New Mexico Endowment for the Humanities              OIG-02-16 (CAA)   09/25/02
Oregon Council for the Humanities                    OIG-02-17 (CAA)   09/25/02
Virgin Islands Humanities Council                    OIG-02-18 (CAA)   09/25/02
Amerika Samoa Humanities Council                     OIG-02-19 (CAA)   09/30/02
Humanities Tennessee                                 OIG-02-20 (CAA)   09/30/02
La Fundación Puertorriqueña de las Humanidades       OIG-02-21 (CAA)   09/30/02
The Newberry Library                                 OIG-02-22 (CAA)   09/30/02
Rhode Island Committee for the Humanities            OIG-02-23 (CAA)   09/30/02




NEH OIG Semiannual Report                        3                                September 2002
                               SUMMARY OF REPORTS ISSUED


                                               INTERNAL REVIEWS
                                         Review of Firewall and Router
                                    August 1, 2002, OIG-02-05 (Internal Review)

 This review is part of a series of reviews that is included   “simple but very secure.” The first finding is OIRM sys-
 in the OIG’s Government Information Security Reform           tem administrators use a group account to perform their
 Act (GISRA) submission to the Office of Management            system administration duties. This is contrary to NEH IT
 and Budget (OMB) for the current year. We reported to         Systems - OIRM Computer Security Policies, Procedures
 OMB in September 2002.                                        and Rules of Behavior. The second finding is the mo-
                                                               dem pool, used to remotely connect NEH IT users to the
 The objectives of the review were to determine 1) if          internal network, bypasses the firewall. This increases
 NEH’s current firewall and firewall policies are in compli-   the possibility of attack.
 ance with NIST guidance, and 2) whether access from
 the internal network to the Internet and from the Internet  We made two recommendations to correct these defi-
 to the internal network is controlled.                      ciencies. The CIO stated that it was necessary to trust
                                                             the OIRM staff. The OIG and CIO are currently working
 Our review revealed that except for two findings, the fire- on the first finding. Concerning the modem pool, the CIO
 wall at NEH is in compliance with NIST guidance which       indicated that NEH will discontinue this practice.
 describes the type of firewall NEH is using as being



                                        Inspection of Davis-Bacon Program
                                Grants Awarded Through Office of Challenge Grants
                                   August 20, 2002, OIG-02-06 (Internal Review)


In the OIG’s review of OMB Circular A-133 audit reports,       Our review revealed that, of the 26 grantees subject to
we found two reports that disclosed grantee non-               the Act, a total of five did not comply with the Act. Of the
compliance with the provisions of the Davis-Bacon Act.         five, two were previously cited by the OIG for non-
The Davis-Bacon Act requires the payment of prevailing         compliance thus, no action is necessary. For one, the
wage rates determined by the U.S. Department of Labor          grant and construction has ended and no action needs to
to all laborers and mechanics on Federal construction          be taken. The other two grantees provided justification of
projects in excess of $2,000.                                  why they were not subject to the Act.

The objective of our review was to determine whether           We recommended that the NEH General Counsel review
grantees receiving NEH Challenge grants in support of          the justification provided by the grantees and provide an
projects that involve renovation and/or construction are       opinion as to whether they are subject to the Act. The
complying with the Act. We reviewed 32 grantee files and       General Counsel’s preliminary review stated that both
found that 26 were subject to the Act.                         grantees were subject to the Act. We also recommended
                                                               that the General Counsel review several questions con-
                                                               cerning the application of the Act to NEH grantees.




NEH OIG Semiannual Report                                      4                                                    September 2002
                               Limited Review of the Grants Management System (GMS)
                            Under the Government Information Security Reform Act (GISRA)
                                    September 10, 2002, OIG-02-07 (Internal Review)

This review is also a part of a series of reviews included ·       Permissions in the application process were not
in the OIG’s GISRA submission to OMB for the current               incorporated into a security plan. A staff person
year.                                                              from one division could add a new application in
                                                                   another division.
The objectives of our limited review were to:
                                                          ·        The permission to add and modify people and insti-
·   Assess the controls, permissions and safeguards                tution records is universally granted to all users of
    that ensure that only data owners can add, change              the Grants Management System.
    and delete records and the process used to assign
    that privilege;                                       ·        The permission to create a panel to review applica-
                                                                   tions in a division was also universally granted to all
·   Determine what audit trails exist to record additions,         GMS users.
    modifications, or deletion of records, and the con-
    version of an application to a grant;                  ·       No audit log existed that could be used to track ac-
                                                                   tivity in the GMS.
·   Determine that these audit trails are adequate.
                                                          ·        The ability to modify division recommendations and
Our review revealed:                                               National Council recommendations exists after
                                                                   OIRM runs its “roll over” program as part of the rec-
·   Office of Grant Management employees had admin-                ommendation process.
    istrator privileges that should be only available to
    Office of Information Resources Management per-      We made six recommendations to correct the deficien-
    sonnel.                                              cies noted. The CIO is reviewing the recommendations
                                                         and has indicated that they are working on correcting
                                                         the deficiencies.




Review of Fiscal Year 2001 Plan of Action and Milestones and Compliance with Office of Inspector General
                  Prior Government Information Security Reform Act Recommendations
                             September 10, 2002, OIG-02-08 (Internal Review)

The CIO reviewed the OIRM Fiscal Year 2001 (FY01)           action to adequately address the weaknesses reported in
Plan of Action and Milestones (POA & MS) and FY01           the POA & MS. OIRM did not adequately address the
OIG GISRA review recommendations.                           security weakness concerning “agency-wide” security
                                                            training. While OIRM did conduct several training ses-
The CIO submitted a list of nine POA & MS to OMB. In        sions, we noted that all system users did not attend the
addition, the OIG’s FY01 GISRA review contained several sessions.
recommendations.
                                                            We recommended that the CIO institute a system that
The purpose of this review was to verify that policies and/ adequately maintains and tracks employee training. We
or procedures implemented were consistent with items on also recommended that, if a system user fails to take the
the CIO’s list and addressed the recommendations made required training, the CIO should deny the person system
by the OIG.                                                 access.

Our review revealed that, except for one OIG recommen-
dation, the CIO implemented and took the necessary



NEH OIG Semiannual Report                                      5                                                       September 2002
                                     EXTERNAL AUDITS/REVIEWS

                                    Limited Audit of City Lore, Inc.
                              September 30, 2002, OIG-02-01 (External Audit)

City Lore, Inc. is an Internal Review Code Section 501    We found several weaknesses by testing City Lore’s
(c)(3) tax-exempt nonprofit organization located in       books and records for grant transactions on seven
New York City. City Lore has received grants from         grants. We also tested the amounts reported on the
NEH as the organization of record on behalf of for-       Final Financial Status Reports and Federal Cash
profit organizations and individuals. In addition, City   Transaction Reports. Our findings include:
Lore has received grants for projects that they under-
take.                                                     ·   Monthly or quarterly budget reports comparing
                                                              actual costs to budget amounts were not pre-
The objectives of the limited review were to determine        pared.1/
1) the extent to which City Lore’s accounting system,
internal controls, and management policies provide        ·   “Procedures for Working with Filmmakers and
reasonable assurance that the organization is ade-            other Cultural Specialists…” were not adequate to
quately managed and accounts for grant funds in ac-           monitor subrecipients. 1/ 2/
cordance with NEH requirements and applicable Fed-
eral regulations and 2) that assurances provided by       ·   Organizational prior approval system was not ade-
City Lore in a telephone survey [(OIG-99-02 (TS)] in          quate to properly monitor and control administra-
November 1998 were correctly implemented. For the             tive changes to NEH-supported projects. 1/
year ended December 31, 2001, City Lore contracted
with a certified public accountant for an OMB Circular    We identified six additional weaknesses in City Lore
A-133 audit.                                              accounting and grant management systems. 1/

                                                          We made recommendations to correct these findings.




1/ OMB Circular A-110
2/ OMB Circular A-133




NEH OIG Semiannual Report                                     6                                                   September 2002
                                      SINGLE AUDIT ACT REVIEWS

We receive audit reports on NEH grantee organizations      ·       Ensure that managers and supervisors sign time
from other federal agencies (mainly the Department of              cards.
Health and Human Services), state and local
government auditors, and independent public                ·       Develop a well-defined, written disaster recovery
accountants (IPA). These reports are the result of OMB             plan.
Circular A-133 audits and they cover financial activity,
compliance with laws and regulations, and grantee          ·       Provide Board with training on how to monitor inter-
management (internal) controls over federal                        nal controls of the organization.
expenditures.
                                                          ·        Include in Board meetings, the Treasurer’s presen-
During the six-month period ended September 30, 2002,              tation of a formal financial report.
we reviewed 93 OMB Circular A-133 audit reports. Six-
teen of the reports contained audit findings. Thirteen of ·        Submit payroll taxes on a timely basis to avoid inter-
the reports with findings were associated with state               est and penalties.
humanities councils.
                                                           ·       Ensure timely submission of financial reports. In
To ensure that we receive OMB Circular A-133 audit                 addition, if such reports are to be filed after the due
reports from the state humanities councils in a timely             date, ensure that management requests the appro-
manner, we send an e-mail message to all of the                    priate extensions.
executive directors and Board chairpersons.
                                                           ·       Provide for a managerial approval system for journal
Following are some of the IPA recommendations
                                                                   entries made. In addition, journal entries should
pertaining to the councils. The councils should:
                                                                   include documentation and explanation.
·   Put procedures in place to include in Board minutes
                                                        ·          Develop a policy for improving internal controls
    the approval for opening and closing bank accounts.
                                                                   when making checks payable to cash.
·   Put control procedures in place to ensure that all
                                                           ·       Develop a formal, written procurement policy that
    reports are reviewed by someone in management
                                                                   adheres to the requirements set forth in OMB
    before submission to the appropriate Federal
                                                                   Circular A-110 for taking physical inventory of as-
    agency.
                                                                   sets.
·   Remit interest earned annually over $250 on Fed-
                                                           ·       Review current policies and procedures for
    eral deposits to the Department of Health and Hu-
                                                                   monitoring subrecipients and consider making any
    man Services.
                                                                   necessary revisions to ensure compliance with
                                                                   federal laws and regulations.
·   Develop a policy to periodically reconcile accounts
    receivable, accounts payable, and grants payable to
                                                        ·          Develop a policy to be used when preparing bank
    the general ledger.
                                                                   reconciliations to handle old outstanding checks.




NEH OIG Semiannual Report                                      7                                                      September 2002
                                INVESTIGATIVE ACTIVITIES

                                                BACKGROUND


The Inspector General Act provides the authority for       When the OIG receives a complaint or allegation of a
the Office of Inspector General to investigate possible    criminal or administrative violation, we make a
violations of criminal or civil laws, administrative       determination of the appropriate action to take. This
regulations, and agency policies, which relate to the      can be an audit, an investigation, a referral to another
programs and operations of the NEH. The OIG                NEH office or division, or a referral to another federal
Hotline, e-mail address, and regular mail are efficient    agency.
and effective means of receiving allegations or
complaints from employees, grantees, contractors,          As of April 1, 2001, one case was open. During the
and the general public. The OIG has obtained               six months ended September 30, 2002, we received
assistance from other OIGs, the Federal Bureau of          11 "Hotline" contacts. We are holding two matters
Investigation, the Postal Inspection Service, and other    open at September 30, 2002.
investigative entities as necessary.




                                            OPEN AT APRIL 1, 2002

·   Allegation that a grantee organization was having               spent and accounted for. The grantee has raised
    financial problems and NEH would not receive a                  sufficient funds to have an independent public ac-
    final product. Our inquiry revealed that the organi-            countant perform an audit. We are continuing to
    zation was indeed in dire straights; however, there             monitor this matter.
    was no indication that NEH funds were not properly

                                        CONTACTS DURING THIS PERIOD


We received seven internal contacts during this period.     We received four contacts concerning grantees and
                                                            applicants for NEH grants.
·   One contact was referred to the person’s supervi-
    sor and another was referred to the Office of Hu-       ·       Allegation that a state humanities council was di-
    man Resources.                                                  recting a subrecipient to involve a church in a pro-
                                                                    posed project. The subrecipient thought this was a
·   Four contacts concerned unwanted e-mail, i.e.,                  violation of the church-state doctrine. The NEH
    business opportunity scams, the Nigerian                        General Council, with the little information we had
    unclaimed money scam, etc. All were forwarded to                at the time, did not believe this particular situation
    the Federal Trade Commission, and when                          violated the Constitution. The OIG is gathering
    applicable the Federal Bureau of Investigation. We              facts from the state council.
    advised NEH staff to send these messages to the
    NEH Security Officer in the Office of Information  ·            We looked into the three other matters and deter-
    Resources Management.                                           mined there was no basis for an investigation.

·   An employee was given a gift by a former grantee.
    We referred this matter to the Designated Agency
    Ethics Officer. We understand the gift was re-
    turned because it exceeded the allowable dollar
    threshold.




NEH OIG Semiannual Report                                       8                                                      September 2002
                            MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

                              No new cases were referred for criminal prosecution.

                                   HOTLINE AND PREVENTION ACTIVITIES

We maintain a local Hotline phone number, agency             the OIG. We also send e-mail messages several
e-mail address, and an Internet address to provide           times during the year to inform NEH staff about the
additional confidentiality for those persons bringing        OIG operations. Posters advising staff to contact the
matters to the attention of the OIG. We continue to          OIG are displayed throughout the agency building.
issue agency-wide e-mail messages to NEH staff
informing them of violations that should be reported to


                                             ANONYMOUS E-MAIL



  We now have on the NEH Intranet and the Internet a           waste, fraud, abuse, and mismanagement in an
  system for staff, grantees, contractors, etc., to report     anonymous manner.


                             SUMMARY OF INVESTIGATION ACTIVITY


                              Open at beginning of period                  1

                            Matters brought to the OIG during             11
                                   the reporting period


                               Total investigative contacts               12

                                Closed or referred during                 10
                                  the reporting period

                                 Open at end of period                     2



                                           RESEARCH MISCONDUCT

The deputy chairman requested the OIG’s assistance           and determine if the individual should have been
regarding a person who received a fellowship sup-            awarded a fellowship funded by NEH. The OIG
ported with NEH funds from an NEH grantee. It was            opined that significant information was available that
alleged that this person fabricated statistics used in a     should have alerted the NEH grantee not to award the
book. The deputy chairman asked the OIG to review            fellowship supported with federal funds.
the material that was available to the NEH grantee




NEH OIG Semiannual Report                                       9                                                     September 2002
                                           OTHER ACTIVITIES


                            INDIRECT COST RATE NEGOTIATIONS/REVIEWS



Grantees are entitled to recover total project costs, both      are usually grouped into a common pool(s) and distrib-
direct and indirect. Indirect costs are those costs of an       uted to those organizational or institutional activities that
organization or institution that are not readily identifiable   benefit from them through the expedient of an indirect
with a particular project or activity but are nevertheless      cost rate(s).
necessary to the general operation of the organization or
institution and the conduct of the activities it performs.      Cognizant federal agencies approve rates after reviewing
                                                                cost allocation plans submitted by grantees. The ap-
The cost of office supplies, general telephone, postage,        proved rates are generally recognized by other federal
accounting, and administrative salaries are types of ex-        agencies.
penses usually considered as indirect costs. In theory, all
such costs might be charged directly; practical difficulties, During this period, we negotiated indirect cost rates with
however, preclude such an approach. Therefore, they           seven grantees.



Grantee                                                  Report Number                  Date Issued

Center for Desert Archaeology                            OIG-02-02 (IDC)                06/17/02
Southeastern Library Network                             OIG-02-03 (IDC)                07/11/02
Conservation Center for Art and Historic Artifacts       OIG-02-05 (IDC)                08/05/02
The Jewish Theological Seminary                          OIG-02-06 (IDC)                08/05/02
Heritage Preservation                                    OIG-02-07 (IDC)                08/23/02
New York Public Library                                  OIG-02-08 (IDC)                09/18/02
Pre-Columbian Art Research Institute                     OIG-02-09 (IDC)                09/30/02




                               PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                        INTEGRITY AND EFFICIENCY


The Executive Council on Integrity and Efficiency           to combat fraud and waste in federal programs and
(ECIE) was established by the President in 1992 to          operations. OIG staff regularly attend ECIE meetings
coordinate and implement government-wide activities         and provide information to the ECIE.




NEH OIG Semiannual Report                                       10                                                     September 2002
                                 REGULATORY AND LEGISLATIVE REVIEWS


The Inspector General Act of 1978, as amended, re-      of agency programs and operations, and (2) contains
quires the Office of Inspector General to review pro-   adequate internal controls to prevent and detect fraud
posed legislation and regulations. The reviews are      and abuse. During this period we provided the ECIE
made to assess whether the proposed legislation or      with comments on various matters affecting the OIG
regulation (1) impacts on the economy and efficiency    community.




                                        OIG INTERNET AND INTRANET


The OIG has listed several semiannual reports on the        To enhance the NEH staff's recognition of the OIG
Internet. The reports are accessible through the NEH        mission and responsibilities, we provide links to several
homepage and the Inspectors General homepage                other federal agencies such as the Office of
(http://www.neh.gov/whoweare/OIG.html).                     Management and Budget, the General Accounting
                                                            Office, the Office of Government Ethics, and the IGNET.




                                             WORKING WITH THE AGENCY


In this period, OIG staff attended and engaged in vari-     Employee Association meetings. The staff were also
ous NEH meetings - panel meetings (where grant appli-       involved in the review of NEH administrative directives.
cations are reviewed by outside consultants), pre-council
meetings (where program staff discuss panel review          The Office of Inspector General contributes to the dis-
results with the chairman and his immediate staff), and     cussions; however, the office does not participate in pol-
the National Council meeting. In addition, the IG and       icy making.
Deputy IG attended the chairman's monthly policy group
meetings. An OIG staffperson attended monthly NEH




NEH OIG Semiannual Report                                   11                                                  September 2002
                                                     TABLE I

                                   REPORTING REQUIREMENTS


The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.


IG Act Reference            Reporting Requirements                                       Page

Section 4(a)(2)             Regulatory and Legislative Reviews……………………………… 11

Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies………………… 2-7

Section 5(a)(2)             Recommendations for Corrective Action ………………………… 2-7

Section 5(a)(3)             Prior Significant Recommendations Unimplemented…………… *

Section 5(a)(4)             Matters Referred to Prosecutive Authorities……………………… 9

Section 5(a)(5)             Instances Where Information Was Refused or Not Provided…… *

Section 5(a)(6)             List of Audit Reports Issued………………………………………… 2-3

Section 5(a)(7)             Summary of Significant Reports…………………………………… 4-7

Section 5(a)(8)             Audit Reports - Questioned Costs….……………………………… 13

Section 5(a)(9)             Audit Report - Funds To Be Put to Better Use.…….…………….. 13

Section 5(a)(10)            Prior Audit Reports Unresolved…………………………………..… *

Section 5(a)(11)            Significant Revised Management Decisions………………………. *

Section 5(a)(12)            Significant Management Decisions with which OIG Disagreed…..*



* None this period




NEH OIG Semiannual Report                                  12                                                  September 2002
                                                    TABLE II
                                       INSPECTOR GENERAL-ISSUED REPORTS
                                             WITH QUESTIONED COSTS

                                                                                 Number Questioned Unsupported
                                                                                Of Reports Cost       Cost

A. For which no management decision has been made by the                             -0-    $ -0-        $ -0-
   commencement of the reporting period.

B. Which were issued during the reporting period.                                    -0-   $ -0-      $ -0 -


                                  Subtotals (A+B)                                    -0-   $ -0-         $ - 0-


C. For which a management decision was made during
   the reporting period.

        i.    Dollar value of disallowed costs.                                      -0-   $ -0-      $ - 0-


        ii.   Dollar value of costs not disallowed (grantee subsequently             -0-   $ -0-      $ - 0-
              supported all costs).


D. For which no management decision has been made by the end                         -0-   $ -0-      $ - 0-
   of the reporting period.


E. Reports for which no management decision was made within                          -0-   $ -0 -     $    -0-
   six months of issuance.


                                                 TABLE III
                                     INSPECTOR GENERAL-ISSUED REPORTS
                            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                             Number        Dollar
                                                                                            Of Reports     Value

A. For which no management decision has been made by the commencement                          -0-         $-0-
   of the reporting period.

B. Which were issued during the reporting period.                                              - 0-        $-0-

C. For which a management decision was made during the reporting period.                       - 0-        $-0-

        i. Dollar value of recommendations that were agreed to by management.                  - 0-        $-0-

        ii. Dollar value of recommendations that were not agreed to by management.             -0-         $-0-

D. For which no management decision was made by the end of the reporting period.               -0-         $-0-




NEH OIG Semiannual Report                                    13                                            September 2002
                            GLOSSARY OF AUDIT TERMINOLOGY

Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision of a law,
regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
funds; because such cost is not supported by adequate documentation; or because the expenditure of funds for the
intended purpose is unnecessary or unreasonable.

Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the time of the
audit.

Disallowed Cost - A questioned cost that management, in a management decision, has sustained or agreed should
not be charged to the government.

Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be used more
efficiently by reducing outlays, de-obligating program or operational funds, avoiding unnecessary expenditures, or
taking other efficiency measures.

Management Decision - The evaluation by management of the audit findings and recommendations and the
issuance of a final decision by management concerning its response to such findings and recommendations.

Final Action - The completion of all management actions, as described in a management decision, with respect to
audit findings and recommendations. When management concludes no action is necessary, final action occurs when
a management decision is made.

Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-504).




NEH OIG Semiannual Report                                  14                                                 September 2002
